<html>
<title> - NEXT GENERATION AIRSPACE CONTROL</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



 
                        [H.A.S.C. No. 114-138]

                   NEXT GENERATION AIRSPACE CONTROL--

                     ENSURING AIR FORCE COMPLIANCE

                           BY JANUARY 1, 2020

                               __________

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                           SEPTEMBER 14, 2016


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

22-456                         WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          


             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                  J. RANDY FORBES, Virginia, Chairman

K. MICHAEL CONAWAY, Texas            JOE COURTNEY, Connecticut
BRADLEY BYRNE, Alabama               JAMES R. LANGEVIN, Rhode Island
ROBERT J. WITTMAN, Virginia          RICK LARSEN, Washington
DUNCAN HUNTER, California, Vice      MADELEINE Z. BORDALLO, Guam
    Chair                            HENRY C. ``HANK'' JOHNSON, Jr., 
VICKY HARTZLER, Missouri                 Georgia
PAUL COOK, California                SCOTT H. PETERS, California
JIM BRIDENSTINE, Oklahoma            TULSI GABBARD, Hawaii
JACKIE WALORSKI, Indiana             GWEN GRAHAM, Florida
RYAN K. ZINKE, Montana               SETH MOULTON, Massachusetts
STEPHEN KNIGHT, California
STEVE RUSSELL, Oklahoma
                Bruce Johnson, Professional Staff Member
              Phil MacNaughton, Professional Staff Member
                          Jodi Brignola, Clerk
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Forbes, Hon. J. Randy, a Representative from Virginia, Chairman, 
  Subcommittee on Seapower and Projection Forces.................     1

                               WITNESSES

Fay, Maj Gen Timothy, USAF, Director, Strategic Plans, Office of 
  the Deputy Chief of Staff for Strategic Plans and Requirements, 
  Headquarters U.S. Air Force....................................     2
Fortney, Maj Gen Michael E., USAF, Vice Commander, Air Force 
  Global Strike Command..........................................     4
Nahom, Brig Gen David, USAF, Deputy Director, Plans and Programs, 
  Headquarters Air Combat Command................................     5
Thomas, Brig Gen Jon, USAF, Director of Strategic Plans, 
  Requirements and Programs, Headquarters Air Mobility Command...     6

                                APPENDIX

Prepared Statements:

    Courtney, Hon. Joe, a Representative from Connecticut, 
      Ranking Member, Subcommittee on Seapower and Projection 
      Forces.....................................................    31
    Fay, Maj Gen Timothy, joint with Brig Gen Jon Thomas, Maj Gen 
      Michael E. Fortney, and Brig Gen David Nahom...............    33
    Forbes, Hon. J. Randy........................................    29

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Bridenstine..............................................    51
    Mr. Conaway..................................................    51
    Mrs. Hartzler................................................    52
    Mr. Hunter...................................................    51

Questions Submitted by Members Post Hearing:

    Mr. Larsen...................................................    55
    Mr. Zinke....................................................    55
    
    
    
    
    
    
  NEXT GENERATION AIRSPACE CONTROL--ENSURING AIR FORCE COMPLIANCE BY 
                            JANUARY 1, 2020

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
            Subcommittee on Seapower and Projection Forces,
                     Washington, DC, Wednesday, September 14, 2016.
    The subcommittee met, pursuant to call, at 3:30 p.m., in 
room 2118, Rayburn House Office Building, Hon. J. Randy Forbes 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE 
     FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Forbes. We are going to go ahead and get started. I am 
always a little concerned when the witnesses outnumber our 
panel. But you guys be easy on me. And today, the subcommittee 
convenes to receive testimony on the Next Generation Airspace 
Control--Ensuring Air Force Compliance by January 1, 2020. The 
distinguished panel of Air Force leaders testifying before us 
are Major General Timothy Fay, Director, Strategic Plans and 
Requirements, Headquarters Air Force Pentagon; Major General 
Michael E. Fortney, Vice Commander, Air Force Global Strike 
Command; Brigadier General David Nahom, Deputy Director, Plans 
and Programs, Headquarters Air Combat Command; and Brigadier 
General Jon Thomas, Director of Strategic Plans, Requirements, 
and Programs, Headquarters Air Mobility Command.
    Gentlemen, thank you for being with us today. And as we 
mentioned, the most important thing we do today is compile a 
record so that we can utilize it for both our markups, drafting 
our bill, and also for explanation and discussions with other 
policymakers here in Congress.
    This past weekend, on the 15th anniversary of 9/11, we were 
reminded of how difficult it is to manage our Nation's 
airspace, and how critically important it is for us to maintain 
situational awareness of what is airborne, where it is, and 
where it is going. To address those challenges, the Federal 
Aviation Administration [FAA] is carrying out the most 
ambitious reform of our air traffic control system since the 
1960s. The Next Generation Air Transportation Management 
System, often referred to as ``NextGen,'' represents a shift 
from decades-old systems to new digital and satellite-based 
technologies, as well as new procedures. It should make air 
travel safer and more efficient, and give our air traffic 
controllers, including military air defense operators, greater 
situational awareness.
    In order to ensure that aircraft comply with this new 
system, the FAA has issued a wide-ranging airspace control 
mandate that will take effect on January 1, 2020. This mandate 
requires most civilian and military aircraft that operate over 
the United States to upgrade their avionics with the Automatic 
Dependent Surveillance-Broadcast (ADS-B) Out system. In 
essence, ADS-B Out is a transponder that will automatically 
broadcast an aircraft's location and flight information to 
controllers on the ground, and also to pilots in the air. It is 
a critical component of the U.S. NextGen system and the larger 
global air traffic management system.
    In a 2015 DOD [Department of Defense] report to Congress, 
the Secretary of Defense indicated that according to current 
plans and timelines, the Army, Navy, and Marine Corps should 
have ADS-B Out systems and be fully compliant with the FAA 
mandate by 2020. The report highlighted significant shortfalls 
in Air Force compliance, however. Indeed, we have heard that up 
to 30 percent of the Air Force's aircraft, to include KC-10s, 
B-1s, B-2s, F-16s, F-15s, and F-22s, will not be fully 
compliant in a little over 3 years.
    According to an FAA Advisory Circular dated 21 September 
2012, non-compliant aircraft will be heavily restricted as to 
where they can fly. I am therefore concerned that the inability 
of the Air Force to meet FAA requirements will have a 
significant adverse impact on the Air Force's training and 
readiness, and ultimately undermine the ability of a large 
portion of the Air Force's combat aircraft to execute their 
wartime missions.
    I would, first of all, like to understand whether the Air 
Force intends to comply with the FAA airspace limitations and 
what risk Air Force intends to take in 2020. I would also like 
to understand the challenges the Air Force faces in ensuring 
that all of its aircraft are compliant, whether it is a 
shortage of resources, aircraft depot throughput limitations, 
engineering integration issues, or the availability of 
commercial off-the-shelf solutions.
    Finally, I am interested in your thoughts as to what can 
this committee do to help ensure that our entire Air Force can 
fly, fight, and win after January 2020.
    Mr. Courtney has just joined us. And, Mr. Courtney, do you 
have any opening--okay.
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 29.]
    Mr. Forbes. With that, General Fay, I believe you are going 
to start us off. Gentlemen, we look forward to your comments. 
As I have mentioned to you before we got here, if you have any 
written comments you would like to put, we will put those in 
the record, and look forward to any opening remarks that you 
might have. General Fay.

  STATEMENT OF MAJ GEN TIMOTHY FAY, USAF, DIRECTOR, STRATEGIC 
PLANS, OFFICE OF THE DEPUTY CHIEF OF STAFF FOR STRATEGIC PLANS 
         AND REQUIREMENTS, HEADQUARTERS U.S. AIR FORCE

    General Fay. And Chairman Forbes, Ranking Member Courtney, 
and distinguished members of the subcommittee, we would like to 
request that the written statement be----
    Mr. Forbes. Without objection, all written statements will 
be made part of the record.
    [The joint prepared statement of General Fay, General 
Fortney, General Nahom, and General Thomas can be found in the 
Appendix on page 33.]
    General Fay. On behalf of Lieutenant General Holmes, Deputy 
Chief of Strategic Plans and Requirements, Headquarters United 
States Air Force, I would like to thank you for the opportunity 
to testify before the subcommittee. I am joined today on my 
left Major Michael Fortney, Vice Commander of Global Strike 
Command; to his left, Brigadier General David Nahom, Deputy 
Director, Plans and Programs at Headquarters Air Combat 
Command; and at the far end of the table, Brigadier General Jon 
``Ty'' Thomas, Director of Strategic Plans, Requirements, and 
Programs, Headquarters Air Mobility Command.
    As you know, a top priority of our Air Force is to balance 
readiness with future modernization. And in a time of fiscal 
austerity, we are committed to making every dollar count while 
conducting combat and combat support operations around the 
globe. As such, our Nation's Air Force must focus on safety, 
compliance, and aircraft modernization in order to maintain our 
national security now and into the future. The United States 
Air Force, like other aircraft operators, faces the Federal 
Aviation Administration's January 1, 2020, mandate to use 
Automatic Dependent Surveillance-Broadcast, ADS-B Out, in the 
significant portion of the National Airspace System. Similar 
standards will be instituted in Europe, creating significant 
pressure for installation by June 7, 2020. As an Air Force, our 
ability to project combat power and maintain global reach 
around the world depends on access to this airspace. While 
deviations or unconditional clearances might be granted on a 
case-by-case basis, these airspace restrictions may prevent the 
United States Air Force from enjoying the same ready access to 
airspace.
    Not meeting these airspace requirements will not diminish 
our combat capability, but could diminish our ability to 
operate globally with efficiency and freedom. With your help 
and support, we have made significant progress and have added 
as much money as we believe is possible to accelerate ADS-B Out 
compliance without taking away from combat capability, or 
driving other bills to the taxpayer. We have been working 
closely with the FAA on mitigation options, and will continue 
to work to minimize any adverse impact. In order to avoid the 
loss of airspace access, the Air Force is taking all necessary 
steps to ensure compliance with the ADS-B Out mandate. While 
the Air Force plans to have a fully compliant fleet, some 
aircraft will remain without ADS-B Out, and will not be 
modified by the 2020 mandate. This is a result of taking 
calculated risk to maintain fiscal responsibility.
    Due to the differences among existing platforms, avionics 
architectures, and new equipment, a systems engineering 
approach must be employed to determine the most cost-effective 
solution to meet the ADS-B Out requirements. The Air Force 
recognizes the potential operational impact and risk to our 
overall readiness by not equipping our aircraft, and is 
addressing solutions to mitigate this risk to the maximum 
extent possible.
    As an enterprise, the Air Force takes airspace compliance 
very seriously. To this point, the entire Air Force corporate 
structure takes responsibility for managing taxpayer dollars to 
effectively balance compliance requirements with the much-
needed modernization of our aircraft. As such, compliance 
efforts have been a significant priority in our programming 
guidance, and this is reflected in the fact that compliance 
efforts are underway across the vast majority of our fleet. As 
you are aware, there is no one-size-fits-all technical solution 
to ADS-B Out. Applying more money or attempting to further 
accelerate our compliance efforts may only induce further risk 
across the fleet. The development of emerging technologies 
needed to support both compliance and modernization efforts in 
a fiscal responsibly way is the driver for the Air Force to 
maintain its current prioritization efforts.
    Where we can use this committee's help is by supporting our 
current and future exemption needs with the FAA. The Air Force 
has been working with the FAA on exemptions from the mandate, 
or procedural accommodations from air traffic control for those 
aircraft that will not be equipped by the current deadline. 
This will allow us to efficiently accommodate several other 
mandates by synergizing modernization efforts. We are 
encouraged that provisions in the rule exist for accommodating 
non-ADS-B-equipped aircraft, and also encouraged to see the 
FAA's exemption to the Airlines for America through the use of 
secondary surveillance radars in the post-ADS-B Out 
environment.
    In sum, the Air Force remains committed to safety, 
compliance, and modernization, and continues to evaluate all 
methods to ensure compliance in its fleet in order to meet 
current and future Next Generation Air Transportation System 
requirements. While aircraft compliance and modernization 
efforts remain ongoing, our goal is to minimize cost and 
maximize operational capabilities. As we look towards the 
future, the Air Force continues to work with our partners in 
the FAA, Eurocontrol [The European Organisation for the Safety 
of Air Navigation], NATO [North Atlantic Treaty Organization], 
and other nations around the globe to ensure we are able to 
accomplish our mission.
    To provide a broader picture of where we stand across the 
fleet, I will turn it over to Major General Mike Fortney to 
discuss the way ahead for Global Strike Command.
    Mr. Forbes. General Fortney.

STATEMENT OF MAJ GEN MICHAEL E. FORTNEY, USAF, VICE COMMANDER, 
                AIR FORCE GLOBAL STRIKE COMMAND

    General Fortney. Chairman Forbes, Ranking Member Courtney, 
distinguished members, I would also like to add my thanks for 
inviting us here today. I am proud to represent the 31,000 
members of Air Force Global Strike Command here. And as you 
know, as General Fay has already discussed, and you did as 
well, Mr. Chairman, ADS-B Out is the core of the FAA's NextGen 
air transportation system, and a major safety upgrade to the 
National Airspace System. All flying aircraft, specified 
airspace, and mandated to comply by 1 January of 2020. ADS-B is 
essential to our aircrafts' ability to operate freely, and to 
comply with international civil aviation organization 
obligations under the communication, navigation, and 
surveillance and air traffic management plan. And we take that 
seriously. Unfortunately, due to higher priorities required to 
revitalize the nuclear enterprise, Air Force Global Strike 
Command has been unable to fund this program in the past. With 
funding expected in fiscal year 2018, however, Global Strike 
Command platforms will begin testing ADS-B upgrades in fiscal 
year 2019 and 2020, but no operational bombers will be 
compliant by that time.
    With this anticipated funding, only two B-1 aircraft and 
two B-2 test--and one B-2 test aircraft will be ADS-B-modified 
prior to 1 January 2020. The remainder of the B-1 and B-2 
fleets will be fully compliant by fiscal years 2023 and 2024, 
respectively. Similarly, the plan for the B-52 incudes 
combining ADS-B and military-required GPS [Global Positioning 
System] code upgrades into a single modification. This 
combination is required because the B-52 needs a new GPS 
receiver in order to achieve ADS-B-mandated accuracies. With 
fiscal year 2018 funding, only two B-2--or B-52 test aircraft 
will be modified prior to the mandate. The remainder of the 
fleet will be compliant by fiscal year 2024.
    Finally, all 38 of the non-Global Strike assigned UH-1 Huey 
helicopters will have ADS-B installed by the required January 
2020 mandate. ADS-B will not be installed in the 24 Global 
Strike assigned UH-1-N Huey helicopters, because these 
platforms will not be operating in the airspace required by 
ADS-B.
    So in summary, higher nuclear enterprise priorities over 
the last several years, coupled with previous year funding 
constraints, have placed us in a situation where bombers will 
have restricted access to airspace starting in 2020. Without 
FAA accommodations to provide exemptions or waivers, our 
aircraft may be prohibited from flying in Class A, B, and C 
airspace and flights above 10,000 feet until compliance. The 
operational impacts of this would include restricted airspace 
access, suboptimal routings, delayed missions, and, of course, 
increased fuel consumption.
    Mr. Chairman and subcommittee members, I want to thank you, 
again, for your dedication and support for the United States 
Air Force and our Nation, and for the opportunity to appear 
here today. Thank you.
    Mr. Forbes. General Nahom.

STATEMENT OF BRIG GEN DAVID NAHOM, USAF, DEPUTY DIRECTOR, PLANS 
         AND PROGRAMS, HEADQUARTERS AIR COMBAT COMMAND

    General Nahom. Chairman Forbes, Ranking Member Courtney, 
distinguished members of the subcommittee, it is a distinct 
pleasure to be here this afternoon. Thank you for the 
opportunity to discuss Air Combat Command's [ACC] effort to 
comply with the Federal Aviation Automatic Dependent 
Surveillance-Broadcast Out mandate. As Assistant Director for 
Headquarters Air Combat Command's Plans, Programs, and 
Requirement Directorate, I am responsible for the efficient 
aligning of fleet modernization with prioritized Combat Air 
Force requirements in a fiscally constrained environment.
    This requires us to make tough priority choices and 
efficiently plan modernization several years in advance of 
actually delivering capability. Midstream adjustments to these 
commitments are often costly and put program warfighting 
capabilities at risk. ACC considers integrating ADS-B Out 
capability an important part of our modernization efforts. The 
majority of our platforms are scheduled to meet the mandate. 
Recently, we accomplished a deep dive on opportunities to 
accelerate ADS-B and determine if we could do so on a few of 
the platforms--if we could do so. We noted on a few of the 
platforms, most noticeably the AWACS [Boeing E-3 Sentry], there 
could be room for acceleration.
    We also determined that even with additional funding, the 
F-15, F-16 Block 30, those are the earlier F-16s, a majority of 
them in the Reserve Component, F-22, F-35, MQ-9 cannot meet the 
mandate timeline without severely impacting our ability to 
field vital warfighting capability and field some critical 
flight safety items and modifications. However, we are postured 
to begin ADS-B integration on most of these platforms before or 
shortly after the mandated date. Breaking current modernization 
pursuits midstream to accelerate ADS-B would severely disrupt 
critical efforts, such as Link 16 receive, combat ID, helmet-
mounted queuing systems, sensor enhancements on the F-22, anti-
icing, automated takeoff and landing on the MQ-9, and a 
critical common operational flight program for the F-15 C and E 
programs.
    Additionally, such action could cause inefficient execution 
of already committed programs translating to poor use of 
limited funds, generating potential risk to programs given the 
maturity of several enabling technologies. Unequipped platforms 
will begin fielding with ADS-B as soon as fiscal year 2021. 
However, full compliance of all CAF [Combat Air Forces] 
platforms, primarily the F-22 and MQ-9, will go out beyond 
2025. ACC looks forward to continuing to work with the FAA and 
our lead service organization to provide greater air traffic 
management efficiency and to ensure that Combat Air Forces 
maintain the ability to defend our Nation. I welcome any 
questions from the chairman or the members.
    Mr. Forbes. General, thank you. General Thomas.

 STATEMENT OF BRIG GEN JON THOMAS, USAF, DIRECTOR OF STRATEGIC 
  PLANS, REQUIREMENTS AND PROGRAMS, HEADQUARTERS AIR MOBILITY 
                            COMMAND

    General Thomas. Chairman Forbes, Ranking Member Courtney, 
distinguished members of the subcommittee, I also thank you for 
the opportunity on behalf of General Everhart, the Commander of 
Air Mobility Command, to testify before this subcommittee.
    Modernization of our Air Force, and, specifically, our 
mobility fleet, is key to our national security. As we look 
towards 2020 and the ADS-B Out mandate, it is a challenge our 
mobility fleets are ready to meet to ensure that we continue to 
provide unrivaled global reach for America. Our ability to 
project combat power anywhere on the globe depends on airspace 
access. And not meeting the ADS-B Out mandate threatens that 
access. We plan to have a fully compliant mobility fleet, and 
the vast majority of our mobility aircraft will be modified by 
the 2020 mandate. To put more meat on the bone for our 
discussion, I will take a moment and briefly discuss the status 
of compliance by mission type. Due to our mission requirements 
and the need to frequently transit saturated international 
airspace, modernizing our airlift aircraft is our highest 
priority. Currently, our airlift fleet is projected to be 49 
percent compliant with ADS-B Out mandates per the fiscal year 
2017 PB [President's budget] submission.
    However, our intent is to raise compliance to above 90 
percent by partnering with the acquisition community to 
separate ADS-B Out from other modifications. Through this 
focused effort we have a road map to ensure our 223 C-17s and 
300 C-130s are fully compliant by the mandate. Modification of 
our 52 C-5s will require more time as we sequence ADS-B Out 
components into other planned modernization programs upon which 
the ADS-B Out capability will rely. For any aircraft that will 
not meet the mandate, we will request an exemption. We estimate 
our entire airlift fleet will be compliant by the end of 2020. 
For our tanker fleet, as this committee is aware, we are at the 
beginning of a recapitalization effort that starts with the 
acquisition of the KC-46. All 179 aircraft will be compliant 
when delivered. The entire KC-135 fleet is also projected to be 
compliant by the mandate.
    For the KC-10, as we look forward, the eventual divestment 
of this airframe, we must balance completing necessary 
modifications and upgrades such as ADS-B Out and safeguarding 
taxpayer dollars. Our plan ensures a portion of KC-10s' 
complete modification prior to January 2020, and we will 
request exemptions for the remaining non-compliant aircraft 
which remain in service for shorter time periods after the 2020 
mandate.
    Finally, our operational support and executive airlift 
fleet composed of C-21s, C-32s, C-37s, C-40s, and VC-25As, 
better known as Air Force One, are all commercial derivative 
aircraft, and we will capitalize on ADS-B Out modernization 
efforts within industry to expedite compliance of these 
aircraft. We plan to have all of these aircraft compliant by 
the mandate. I am happy to address any questions you have on 
any of these platforms. And as my counterparts here, truly 
appreciate the support you and this subcommittee have given to 
our Air Force and to the Air Mobility Command. Thank you for 
allowing me to discuss Air Mobility with you today. And I look 
forward to your questions.
    Mr. Forbes. Thank you, General Thomas.
    General Fay, you used a phrase when you looked at what we 
were trying to do to be in compliance. It said calculated risk. 
And one of the phrases that bother this committee as much as 
anything is we hear over and over again people coming from the 
Pentagon and saying: Well, this is acceptable risk, or this is 
calculated risk. And we normally kind of sweep that under the 
rug. But what we always want to find out is what is that risk? 
So can you tell us and tell the committee what is the risk if 
we are not compliant by 2020?
    General Fay. Well, Chairman Forbes, the way I would 
characterize how the Air Force is managing the risk as we 
approach 2020 is, first and foremost, we are working very hard. 
And I think you have heard that from all of the generals here 
today, that we are working hard to achieve compliance to the 
maximum extent possible. That is step one in managing the risk. 
And we very accelerated, if you will, our progress to meet--to 
make the maximum amount of the fleet compliant by the deadline.
    Now, while we are doing that, we are working very carefully 
to balance in that risk calculus a number of factors. First and 
foremost is the operational availability of aircraft to meet 
the needs of the current security environment. For instance, 
the Air Force looks across its entire fleet, and we don't have 
the ability to sit a large portion of our fleet down and take 
the aircraft apart and do a large portion of our fleet at the 
same time because of the current demands on the Air Force, and 
potential demands on the Air Force required by warfighting 
commanders and operational plans or unforeseen contingents.
    Second, I would say we are managing our risk by taking a 
broad holistic look at all of our warfighting and safety-of-
flight compliance items. And we are looking also economically 
at that equation, if you will, of all the modifications and 
upgrades required. And we are trying to combine as many of 
those as possible to make that a very efficient process. So, 
for instance, we don't have to take the same airplane, sit it 
down, take it apart, put it together, and then 6 months later, 
have to it sit down and take it apart again for another 
modification. We are trying to do it just once to be as 
efficient as possible. The third thing I would say that we are 
working to balance as we approach 2020, along with the others, 
is maximizing the capability of our suppliers without 
overwhelming them. And also, if you will, our industrial base, 
our ability to do actually the physical maintenance and the 
requirements, the changes to the aircraft. We just have so many 
places and folks that are able to do that. So those are the 
three things I say that we are working to--when we talk about 
risk manage, that we are talking about balancing.
    Now, sir, to the second part of your question, what is the 
potential impact, just to clarify, the potential impact is not 
on the warfighting capability of the United States Air Force. 
If we have to go to war, this is--ADS-B is a civil aviation 
peacetime-of-flight, if you will, requirement to help air 
traffic control manage for safety in flight and efficiency in a 
civil-aviation-type environment.
    So this isn't a warfighting issue we are talking about risk 
managing. What we are talking about risk managing is, if you 
will, the day-to-day operations in the civil-aviation-type 
environment. It is possible if some of the exemptions and 
mitigations we are working with the FAA are not--if we are not 
able to get to them, that we will be required to fly longer 
routes, lower altitudes. And so that impacts our ability, if 
you will, to do some training and to do some peacetime-type 
missions. And that will result certainly in higher fuel 
consumption when we have to fly longer, further, and lower.
    Mr. Forbes. So it won't impact us in our combat operations, 
but it could impact us on our training and readiness?
    General Fay. Yes, sir. It certainly could impact us on our 
training and readiness.
    Mr. Forbes. And, General Fortney, you mentioned something 
that I would just like for you to explain a little bit. You 
said that the reason we were--part of the reason we were here 
is because we had other priorities, nuclear priorities, and we 
had other funding shortfalls. This rule came out on September 
21, 2012. If we had other priorities and we needed more money, 
did the Air Force ever request that from this subcommittee or 
from Congress? Because I don't recall anything from September 
21, 2012, when the Air Force ever came in and said we need 
these dollars. And I didn't see anything since the Air Force 
hasn't sent us unfunded mandate list where it was listed there.
    General Fortney. Yes, Mr. Chairman. That is, of course, a 
good question. And I can't honestly answer whether we have 
requested anything since 2012 on. What I can speak to are the 
priorities over the last 2 or 3 years that we have been forced 
to prioritize above this.
    Mr. Forbes. But have there been any requests from the Air 
Force for additional dollars that they would need?
    General Fortney. For this specific program----
    Mr. Forbes. And the only reason I say that is you guys are 
doing a wonderful job. We want to pat you on the back. But it 
really frustrates us when we kind of reach in like the usual--
at the end of a Casablanca movie where they say round up the 
usual suspects. And when we fail on something, we have pleaded 
with the Air Force, we pleaded with the services over the last 
several years, tell us what you need. And the Air Force 
consistently has come in, they don't even give us an unfunded 
mandates list, and then they come in now and say: Well, we 
couldn't do this because we had funding shortfalls, or because 
we had other priorities. And we all scratch our heads and say: 
Why didn't you tell us that 2 years ago, 4 years ago, 6 years 
ago? Because it has been a long time since September 21 [2012]. 
So I am not pointing a finger at you. I am just saying we 
probably shouldn't use that phraseology if the Air Force didn't 
come in and ask for something. If they came in and asked for 
more dollars, fine. But if they didn't ask for dollars, I don't 
think it is fair to come in and say: We're here because we had 
other priorities and we put our money somewhere else. The Air 
Force could have come in and asked us, and I think all of us 
would have reached in and tried to get those dollars to do it.
    My last question is this: This is also, General Fay, for 
you. You know, given that both the civilian and military 
aviation sectors are impacted by FAA mandate, there are 
commercial off-the-shelf solutions available to the Air Force 
to enable compliance. The committee has heard concerns of a 
number of these small business regarding requirements, General 
Thomas just talked about using some of those, and industry 
opportunities. The industry has been concerned that they aren't 
doing it. I am not saying they are. I just ask you a question: 
What is the Air Force doing to leverage small business 
commercial off-the-shelf solutions to meet the mandate, and can 
any of you give us any specific examples of that?
    General Fay. Yes, Mr. Chairman. And I am going to defer to 
General Thomas here because he can give one specific example. 
But what I will say is clearly Air Force works on all of its 
programs to fully comply with the Federal Acquisition 
Regulations, and all laws and policies applicable there. And I 
think we have actually got a pretty good news story and a good 
example that General Thomas will share.
    Mr. Forbes. Good. General.
    General Thomas. Thank you, sir. Still in source selection, 
but C-130 Avionics Modernization Program Increment 1, which is 
the increment that ensures compliance with the ADS-B Out 
mandate, is a small business set-aside. So once that source 
selection is complete, you should see it go to a small business 
that has an opportunity to compete in this environment.
    Mr. Forbes. Mr. Courtney.
    Mr. Courtney. Great. Thank you, Mr. Chairman. And I 
apologize for being a little bit late. And thank you to all of 
you for your testimony. Again, just quickly, General Thomas, it 
was good to hear your update regarding the airlift. Again, in 
Connecticut, we are sort of following this like a box score 
with the C-130s up there. And it seems like things are really 
on track. And I guess I am--excuse me, General Fay, you know, 
for some of us who are maybe not as well-versed in this, I 
mean, it does seem like there is sort of an uneven sort of 
story here in terms of, you know, where--the percentage of 
compliance in terms of one sector versus another. And, you 
know, I guess it is--so it is 2016; 2020 is way off. I mean, we 
clearly know we have got a problem here, an issue. I mean, 
isn't there some way to emulate, you know, we are sort of ahead 
of the curve as opposed to behind the curve to get things sort 
of moving more smartly together?
    General Fay. Ranking Member Courtney, appreciate the 
question. I think the way I would respond is to say that I 
think that we, as an Air Force, are--we believe we are moving 
on it as fast as we can. And that, frankly, we couldn't put a 
lot more money at this problem and be able to go any faster 
just based on those things I talked about, operational 
availability, the industrial base being able to respond. 
Another very big part of this is the Air Force fleet is 
composed of a wide range of aircraft with very different 
technical, if you will, backbones and engineering, if you will, 
requirements.
    So very big difference between what I can do with a C-5 
aircraft, which is very large, has great cooling and a lot of 
power available to do things, and doesn't have to penetrate 
enemy airspace, so it doesn't have any special requirements in 
that area versus a tactical aircraft, an F-22 or an F-35 or an 
F-15, for instance, as an example, that is much smaller, has a 
lot less, if you will, ability to have things placed in the 
aircraft just because it is small. A lot more technical, if you 
will, integration on those aircraft with a crew of one, and the 
way we have those systems built.
    So I would say yes, we know that it is uneven across the 
Air Force fleet. If you take a look at our Air Mobility Command 
fleet, nature of the aircraft, nature of their mission, we have 
been able to rapidly respond, and the technical nature of those 
airplanes get to over 90 percent compliance anticipated by 
2020. Some of our more highly specialized aircraft that require 
that integration, that require, you know, software and hardware 
solutions that can't be necessarily off-the-shelf, because some 
of our security requirements and some of our technical 
requirements in those very tactical aircraft, that is a much 
different challenge for us. So it will be a little bit uneven, 
Ranking Member Courtney, as we proceed forward. But again, we 
think that we are moving about as fast as we can in all of our 
fleets.
    Mr. Courtney. Okay. And so, I mean, given sort of the logic 
of your answer, you know, which is very logical, I mean, is the 
time now to start engaging with FAA to sort of explain to them 
what the sort of special challenges, you know, different pieces 
of the fleet have so that you don't have any big surprises and 
don't run into the issues that the chairman, you know, asked 
you about?
    General Fay. Sir, the time is now, and we are engaged, is 
the good news story on that. And one of the things that I would 
just like to highlight is our appreciation of the great work 
with our FAA teammates as we work on this. So specifically, 
what we are doing with our FAA teammates to potentially 
mitigate some of the impact on the aircraft that are not 
equipped when we reach 2020, is we are working on--with them 
based on a rule that they put actually into this regulation 
after discussions with the Department of Defense, we are 
working with them on a memorandum of agreement for an exemption 
for the national defense mission requirements.
    We have got great open progress that is moving forward. As 
I was sharing earlier with the chairman before we came in, I 
think we are on version nine of that memorandum of agreement. 
And so that has been good collaboration moving back and forth. 
We are very hopeful that we will have something in place before 
the deadline. And we anticipate that at this time.
    Mr. Courtney. So I am sure this subcommittee would want to 
help with that process if there is a way that you feel we 
could. And I guess the last question I would have is just to 
bring up the dreaded two-letter word, CR [continuing 
resolution]. I mean, obviously we are on the cusp of some 
probable CR of some length. I just sort of wonder if you could 
kind of tease out, you know, how that impacts, you know, the 
timeline and implementation that we are talking about here this 
afternoon.
    General Fay. And, sir, what I would say is for the Air 
Force in general, kind of the general theme for us is stability 
in long-term budgeting is absolutely welcome. And I think it is 
something our chief has probably echoed in testimony 
previously. So when we talk about any of our long-term planning 
and new starts and those sorts of challenges we have, anything 
that disrupts that long-term stability is something that is 
detrimental. We anticipate, and I think we could probably give 
you some specific examples, that a long-term CR could have 
potential negative impact on our ability to execute this plan 
as we currently envision it.
    Mr. Courtney. Great. Well, hopefully we won't have to ask 
you for that, but we may. So, anyway, thank you to all of you 
for your testimony, and I yield back.
    Mr. Forbes. And before we go to the gentleman from 
California, General, would you mind just clarifying for Mr. 
Courtney the difference between the waiver we are seeking for 
the FAA in the United States versus your international 
concerns, which we probably aren't as favorable in getting 
those waivers.
    General Fay. And, Mr. Chairman, certainly. The FAA is a 
current ongoing effort. In the rules that the FAA wrote, 
actually specifically considered that there would be discussion 
with the Department of Defense and other departments like the 
Department of Homeland Security on exemptions for national 
security requirements. Now, we are also working with some of 
our international partners that also have--that we have 
challenges with in this area, because they are doing the same 
thing. Specifically in Europe, their mandate occurs slightly 
after ours does. It occurs in June of 2020. So about 6 months 
later than the U.S. mandate goes into effect. We are currently 
working with the Eurocontrol, which is the agency like our FAA 
that we are going to have to work this with. We are also 
working with our NATO allies on this issue. I can't, at this 
point in time, say how that will turn out, because obviously 
that is going to be an international negotiation that we are 
going to have to work through those processes. But we hope to 
have a similar outcome, that we are able to work some sort of 
an exemption or, and a mitigation so that we can work on that. 
And so we are working that actively. But again, we can't be, as 
the chairman mentioned, we can't be as specific, because that 
is, obviously, a little bit more difficult.
    Mr. Forbes. The gentleman from California, Mr. Knight, is 
recognized for 5 minutes.
    Mr. Knight. Thank you, Mr. Chair. Sir, just a couple basic 
questions. The other services, are they similar situation with 
their aircraft?
    General Fay. Congressman, actually the other services, I 
can't speak for them. But I think that you have seen the 2015 
report we sent over to Congress on some of this from the 
Department of Defense. They have done well and applaud them on 
that. What I can do is kind of, you know, explain to you a 
little bit some of the difference between the Air Force and 
some of the considerations that--as we have that discussion 
between, you know, why things are a little bit different. 
Things that, you know, we kind of look at in the Air Force as 
kind of our fleet size and age, our mix of aircraft types, our 
operational tempo and some of our immediate warfighting 
requirements that drive us to some of our maintenance 
scheduling. Certainly, some of our system design and 
complexity, our industrial base, our supplier base, and our 
maintenance operations, all those things vary by service to one 
degree or another. So those are factors I would say that 
probably impact some of the differences between the services.
    Mr. Knight. Certainly. And I would expect the Air Force has 
way more aircraft, and it is a daunting goal here. My second 
question is about new aircraft. So when we are purchasing new 
F-35s, or if we are purchasing other new fighters, might be F-
18s or other new aircraft, are they ready to go, or do we have 
to update them when they come back here?
    General Fay. Sir, I defer to General Nahom.
    General Nahom. Sir, General Nahom from the Air Combat 
Command. The new aircraft--many are coming off the line 
compliant. An example would be the combat rescue helicopter 
replacement, the HH-60 Whiskey, as well as the EC-130 cross-
deck will come off the line compliant. F-35 is a little 
different case. It is part of a block upgrade, the Block 4 
upgrade. So that will be--it will miss the mandate, but it is 
scheduled in and it is part of the planned program and upgrade 
of the F-35s. They are all a little bit different for the new 
airplanes. But for the most part, it will come off the assembly 
line compliant.
    Mr. Knight. Okay. So if the F-35 is in a new block upgrade, 
is part of the upgrade this to make sure it is compliant? Is 
this part of the block upgrade?
    General Nahom. Yes, sir, it is part of Block 4 upgrade to 
the F-35.
    Mr. Knight. Okay. Okay. Thank you, Mr. Chair.
    Mr. Forbes. The distinguished lady from Florida, Ms. 
Graham, is recognized for 5 minutes.
    Ms. Graham. Thank you, Mr. Chairman. And, Majors, if you 
will just humor me for 1 second, I want to take this 
opportunity, because I don't know if I will have another one, 
Mr. Chairman, to personally thank you for your service to this 
committee and to the Armed Services Committee. I serve on five 
subcommittees. And I don't want to disparage any of the other 
chairs because they are all wonderful. But I want to personally 
thank you, as a new Member of Congress, someone that desired to 
learn a lot and be a part of the process, you have allowed me 
that opportunity. And it has been an honor to serve on a 
committee that you chair. And, both personally as well as 
professionally I want to thank you. Thank you, Mr. Chairman.
    Gentlemen, a question about--and this is only because in 
the segue that I want to learn every day. Curious, How does the 
interaction between defense aircraft and civilian aircraft, how 
does that work in terms of the air traffic control and having 
different planes with different objectives in the air? How does 
that work with the FAA? I am curious.
    General Fay. Well, ma'am, I think in a very general sense, 
I would say that more or less the same rules apply. Safety of 
flight rules apply. We are held to the same standards, if you 
will, and requirements in regulations. Now that said, there is 
clearly exemptions for military-type operations. For instance, 
when we are operating in the military operating area, we 
separate ourselves from the vast majority of civilian traffic 
because we are doing tactical maneuvers, or high-speed 
maneuvers, or specialized maneuvers.
    So we have worked with the FAA over the years, and I would 
say we have got a well-understood process to separate military 
activity that is, if you will, high performance from civil 
aviation, you know. And that is either physically or 
procedurally. And a lot of that is physically. We just go 
places like over the ocean, and some of the experts here from 
the commands can talk to you about how we do restricted 
airspace and closed airspace in military operating areas. And 
some of it is just flat-out procedural. But when we are 
interacting in, I would say, the national airspace in general, 
and if there is anybody else who has a better perspective than 
I do on this, we essentially comply with the very same mandates 
and the very same requirements for safety of flight.
    Ms. Graham. Does anyone else have anything to add?
    General Nahom. Ma'am, speaking from the Air Combat Command, 
essentially the fighter side, just like General Fay said, if we 
are going to be something different than operating like a 
civilian aircraft, then we are in restricted airspace, sterile 
airspace, and then we can do such things like turn off our 
squawks or even turn off our lights at night for NVG [night 
vision goggle] training, those things. But when we are 
operating in the air route structure, we use--we follow exactly 
the same rules and we follow exact same procedures and the air 
traffic controllers can see us just like they can see an 
airliner, and they can have safe separation to make sure safety 
is complied with.
    Ms. Graham. Is there anything different--I had the honor--I 
represent Tyndall [Air Force Base] at Panama City, Florida. I 
had the honor of going up in a T-38 on a training mission with 
F-22s. Okay. I have now tapped out my acronyms for--and at one 
point, we were--the training mission was actually taking off--
landing and taking off quickly, so if there was a mission that 
needed to go out quickly. I am assuming that there are special 
rules the FAA follows when they are going through training 
missions such as that that are unique to a defense operation?
    General Nahom. Ma'am, it would work, again, essentially the 
same way. Now, when you are actually in the airfield like 
Tyndall operating at that airfield, you are in the Class Delta 
[D] airspace which the air traffic controller controls in, and 
in a military airfield like that, we may control it a little 
differently, because there is no civilian air traffic within 
that. But for the most part, once you get outside that 5-mile 
ring of the air traffic controller's purview, then you work the 
same way as a civilian aircraft until you got into the sterile 
airspace of a military operating area, or a restricted airspace 
over the water.
    Ms. Graham. Okay. I think since I am almost out of time, I 
appreciate you all being here very much, and I will yield back 
the balance of my time.
    Mr. Forbes. The young lady yields back the balance of her 
time. And we now recognize the gentleman from California, Mr. 
Hunter, for 5 minutes.
    Mr. Hunter. Thank you, Mr. Chairman. I just asked a pilot 
over here a question, it was probably a really simple question, 
really simple answer. ADS-B Out is just a transmitter, right, 
that shoots to the--you have ground systems and you have a 
Global Positioning System, global navigation satellites. So it 
shoots out like every second your direction, your speed, that 
is--and your identification, right?
    And so you are telling me--so for a Cessna, and I only know 
this because I am on the Transportation Committee, for--because 
the general aviation committee, or community got up in arms 
because it is going to cost like $5,000 per $40,000-aircraft or 
something if you have a little Cessna or Piper or something. I 
don't know airplanes at all. Why is it so expensive? I mean, 
that is my question. If you are just transmitting, can you 
explain why it is--because are you setting it up for ADS-B In 
as well so you are setting up everything for later when you 
have to have that and including ADS-B Out in that, or what 
makes it so much more expensive?
    General Fortney. Yes, sir. As General Fay spoke about in 
his opening remarks, it is really--to me it is the integration 
of several things at the same time. Some of them are a little 
easier because the aircraft is a little more advanced. It might 
be something as simple as a circuit card replacement in an 
aircraft to make it ADS-B compliant. I mean, other cases like 
in the bomber fleet, we are combining this upgrade with another 
upgrade or another upgrade that has to take place at the same 
time to facilitate ADS-B.
    Mr. Hunter. Now, explain that, though. Because, I mean, 
what I picture is, I picture some kind of a transmitter and you 
plug it in.
    General Fortney. Yes, sir, I can give you an example with a 
B-52, for instance. The B-52 is not what we call M-code [next 
generation military code] compliant right now. It is a higher 
speed, more accurate, more jam-resistant form of GPS. And all 
military aircraft are being converted over to M-code. To be 
ADS-B compliant, you have to have M-code as well. And so taking 
those two capabilities, merging them together into the same 
program is what we are doing trying to get synergy, so when you 
take the aircraft off the line to do an upgrade, you only have 
to do it once. I don't know if that answers your question, sir.
    Mr. Hunter. Sure. It does. But you are still saying your 
average cost is $2.5 million per aircraft?
    General Fortney. I am not----
    Mr. Hunter. Even when you piggyback on other upgrades and 
other systems where you are taking apart the stuff anyway?
    General Fay. So, sir, we can take that one for the record.
    [The information referred to can be found in the Appendix 
on page 51.]
    General Fay. But what I can tell you is the cost per 
aircraft varies widely by fleet. And as I was discussing a 
little bit earlier, for some of our larger aircraft, some of 
those, if you will, commercial-like solutions are great 
solutions, and it is very cheap to do. Some of the jets just 
require software. So virtually free. Now, some of the aircraft, 
for instance, I will take some of our higher technology 
aircraft, essentially they are electronic aircraft, unlike a 
Cessna or, if you will, a small commercial aircraft. So these 
electronic aircraft essentially have--they are a computer with 
data moving on, if you will, wires or fiber. And so now when 
you start talking about I have to take position information 
from this electronic, if you will, infrastructure within the 
aircraft, integrating anything on that now is touching the 
entire aircraft, if you will.
    And so it has to be, if you will, integrated into that 
entire aircraft so that position, that information that is 
coming from the GPS and the navigation system and being 
broadcast is able to safely be integrated into that aircraft, 
and that is where you start getting into some fairly 
significant expenses when you are having to, if you will, take 
apart complex electronic systems and put it into the middle of 
a complex electronic system. And General Nahom probably can 
give some good examples of that from fighter perspective.
    Mr. Hunter. That is all right. I understand. I mean, in 
this one case, it sounds like we should go for the lowest cost 
technically acceptable thing that there is, because it is just 
transmitting. But thank you. That is a great translation of 
this. I appreciate it. And I yield back the balance of my time.
    Mr. Forbes. The gentleman from Texas, Mr. Conaway, is 
recognized for 5 minutes.
    Mr. Conaway. Well, thank you. And I guess, I am not sure, I 
guess because you have so many different airplanes and 
aircraft, every one of them has got an exquisite solution to 
it, but you fly 11 737s or C-40s. The cost for that, is that 
the same cost as Southwest would pay to fix all of theirs? It 
would be the same fix, right?
    General Thomas. Sir, for that fleet we are leveraging the 
commercial solutions that are being put out there. So, for 
example, our aircraft will be modified at some of the same 
depots that commercial aircraft get their modifications at. So 
for that fleet, yes. I mean, there are simpler ones. The KC-
135, for example, it is going to be a software modification. So 
it just depends the type of aircraft.
    Mr. Conaway. Okay. So we got--I have got a list here, and I 
think you guys probably gave it to us, of Air Force compliance 
status by aircraft series. And it lists 223 F-35As. I am 
assuming that since you have known about this since 2012, the 
planning to fix the F-35 went into effect almost immediately, 
so the 223 is the only group that will be retrofitted, that 
delivery 224, General Nahom, will have whatever is needed, 
right?
    General Nahom. Yes, sir. When the Block 4 aircraft start--
begin coming off the assembly line at Fort Worth, they will be 
compliant, and at that point, we will go back and retroactively 
fix the Block 3.
    Mr. Conaway. And given that aircraft, that is a software as 
well, or are you going to have to add gear to that?
    General Nahom. There actually is some hardware 
modification, because there is basically a new central 
processor in the newer airplanes. So that will be part of the 
upgrade.
    Mr. Conaway. I guess the frustration, I just don't 
understand, you know, why this is so complicated because you 
put new stuff on aircraft every, you know, so often anyway, but 
it is frustrating, as the chairman said, that we are here with 
what is going on.
    Any of our Air Force bases locked out of being able to be 
used as a result of this FAA rule if you don't get any kind of 
waiver? Can we still fly all the Air Force bases that we have 
in the United States under non-combat operations?
    General Fay. Well, sir, I tell you, as we anticipate right 
now, and I think we provided this in previous reports and also 
in some of the written testimony, we are working very hard with 
the FAA. There is mitigation, if you will, already written into 
the rules. And one of the mitigations is that you file a flight 
plan 1 hour before you fly. And as long as civil aviation 
activity in that area and the air traffic controller permit, we 
are going to be able to operate.
    Mr. Conaway. Okay. So given our high-volume training bases, 
Lackland--or not Lackland, but the one in Del Rio, is that--
would that be a training impact for flights that--for aircraft 
that aren't compliant? Will you be able to train as often as--I 
mean, I am just trying to get the impact on U.S. bases. Are 
there ones where you would no longer be using those for 
training because of this rule and the noncompliance?
    General Fay. Sir, we don't anticipate that that is going to 
be the case. But should the air traffic controller tell us for 
whatever reason that there is an impact or they disallow us to 
use that airspace, then we could be restricted in altitude. 
They could give us, you know, routing that is a little 
different.
    Mr. Conaway. Is that something you are having your team 
look at now in a hard analysis? Or is it just--or are we 
waiting until 2017 or 2020, whenever it is, and they are going 
to say: Oh, by the way, you can't use that? Surely you are 
looking at that?
    General Fay. No, Congressman, we are working very hard to 
first accelerate everything as rapidly as we can. Second, 
mitigate so--because we are pretty confident that we are not 
going to be able to get the entire fleet accomplished based on 
some of the factors we discussed earlier. And then third, we 
are going to have to work with the local, if you will, air 
traffic control as we approach 2020 to assess the impacts.
    Mr. Conaway. All right. I know you can't do it today, 
General Thomas, but at some point in time, I hope you are able 
to tell us whatever you did to the C-40s was reasonably close, 
or if not, why it wasn't the same as what Southwest can do with 
their fleet. You can't do it today. I got that. But at some 
point in time, that is a question somebody ought to ask is, 
were you able to be as, you know, cost effective as the 
Southwest guys. And if not, why not? So I yield back. Thank 
you.
    Mr. Forbes. If the gentleman would yield before he yields 
back. Maybe, General, we would ask that you maybe submit that 
for the record if you could to answer Mr. Conaway's question 
and so that we can get that information if that is possible.
    General Thomas. Of course, Mr. Chairman.
    [The information referred to can be found in the Appendix 
on page 51.]
    Mr. Conaway. And let the record reflect that that is only 
11 airplanes out of 1,600. So--but it is important. You know, 
if you are watching the nickels and dimes, sometimes the 
dollars get taken care of too.
    Mr. Forbes. The gentleman from Washington, Mr. Larsen, is 
recognized for 5 minutes, if he is prepared and ready to go. 
Then I will come back to you. In that case, we go to the 
gentleman from Virginia, Mr. Wittman, for 5 minutes.
    Mr. Wittman. Thank you, Mr. Chairman. General Fortney, in 
looking at where compliance issues are going to be with the FAA 
as of January 2020, limitations of no flight above 10,000 feet, 
all Class B and C airspace restricted for non-compliant 
aircraft, Gulf of Mexico area, anything above 3,000 feet out to 
12 miles, all restricted with non-compliant aircraft; tell me 
in that scenario, and I understand where you are looking at 
trying to upgrade aircraft to provide these transmission 
capabilities, what happens in the scenario of having our 
aircraft across the spectrum of the Air Force as far as overall 
readiness? So give me a perspective on what you can accomplish 
by 2020? The what-ifs if you can't accomplish? Are there 
certain priorities you place on aircraft? What happens with 
overall Air Force readiness based on the scenario that the FAA 
has put before you?
    General Fortney. Yes, sir. Congressman, by 2020 we are only 
going to have test aircraft properly configured, which means 
our operational fleet, our day-to-day fleet that we use for 
training, our bombers' assure and deter missions, our COCOM 
[combatant command] support missions, all the training that we 
do are going to be non-compliant. And you hit the nail on the 
head. I mean, we fly in high altitudes. That is what we do. We 
fly around the world. We have long-duration sorties. I mean, 
even our CONUS, our continental United States sorties are long-
duration sorties. And so unlike the fighter counterpart where 
they may only have to talk to one air traffic control center, 
if we are forced to plot a course where we are going to be on a 
10.5-hour mission over the United States, eventually dropping 
munitions over the Utah test range, we are going to have to be 
in constant communication or requesting waivers and exemptions.
    And so we are going to have to work closely with the FAA as 
we approach this on the ROE [rules of engagement], the rules 
that we are going to use to do this. And frankly, sir, we 
haven't done that yet. But yes, we know we have to do that. And 
so I would just conclude with saying without accommodation from 
the FAA, the 1-hour constraint will be a challenge.
    Mr. Wittman. I think, too, it will be helpful for members 
to have your scenario if you cannot get the FAA to consider 
your situation and make any kind of accommodations as to where 
you will be with training opportunities, with generating 
readiness here, across the spectrum within the Air Force. It 
would be good for us to know, because I do think that we have 
to look at the worst-case scenario there so that if push comes 
to shove, and Congress needs to get involved about the 
crossover in the regulatory realm and how it affects military 
readiness, we have to know, you know, what that worst-case 
scenario is. So I think that would be very helpful to us is for 
you to lay that out so that we could be mindful of it. Thank 
you, Mr. Chairman. I yield back.
    [No answer was available at the time of printing.]
    Mr. Forbes. The gentleman yields back.
    The gentleman from Washington, do you need a little more 
time? The gentleman from Washington is recognized for 5 
minutes.
    Mr. Larsen. I won't need 5 minutes. I don't have a lot of 
questions, because as I am the ranking member on the Aviation 
Subcommittee on the Transportation Committee, so I am up to my 
alligators usually in NextGen. And it is not--although not 
unusual for folks flying airplanes to not be meeting mandates 
and such, we are getting people to--getting the system, which 
includes airlines and includes air traffic controllers, and 
includes the folks at TRACON [Terminal Radar Approach Control 
Facilities] and so on, we are getting everybody up to speed, 
settled on key recommendations to implement or funding those 
recommendations, and those are done over the next set, been 
able to do that, certainly on the civilian side. So I am not 
really--there may be a lot of excuses for not getting there by 
2020 for the Air Force, but I am not listening to excuses on 
the civilian side anymore, so I am not going to listen to 
excuses on the military side anymore.
    And this is just one element. ADS-B is just one element of 
it. And so, I think that the message I just would like to 
provide is that if you need help to get it done by the date, 
just like we did with FAA, on the Aviation Subcommittee, we 
went to FAA, said, we will help you. We will block and tackle 
and keep people away so you can get it implemented, so the 
system can get implemented, so the folks who use it can 
implement the various elements of NextGen. And if you need 
that, then we ought to make that same commitment to you. If you 
don't need it, then there should be no arguments about whether 
or not you are getting to the mandate by the timeline.
    That is basically what I would offer. It can be done. It is 
being done, and I believe you can do it, too.
    Thanks.
    Mr. Forbes. The gentleman would yield.
    Mr. Larsen. I yield back.
    Mr. Forbes. I know you have great expertise in this area. I 
am certainly not offering a defense for these gentlemen. They 
have expertise. But in conversations, I think their response 
back would be, perhaps the Air Force could have done more. 
Perhaps they could have set additional priorities and asked for 
additional funding, but there are three major things that make 
them a little more unique.
    One is the demand they have for their planes, and part of 
that is because we have let them have the shortfall--I mean, in 
the planes that they have, that demand number is impacting 
this.
    Secondly, I think as General Nahom would say, that we have 
an industrial base concerning that the Air Force can't overcome 
right now, and we can't overcome.
    And the third thing is we have some engineering concerns on 
some of our planes.
    Is that a fair representation of some of the roadblocks, 
General Fay?
    General Fay. Chairman, I think that is a fair 
representation of the key--of the key challenges that the Air 
Force is working to. But what I would say, and, sir, we fully 
understand the importance of compliance. We are working very 
hard getting into compliance, and I would say that an example 
of that, I think, if you look at our budget submission, you can 
see that the Air Force has committed significant resources to 
get after that to the tune of a large amount of dollars.
    Mr. Larsen. If I may?
    Mr. Forbes. Yes, please.
    Mr. Larsen. If I may? You know, it is not just compliance 
for the sake of it, right? This is a set of systems that are 
supposed to help us. So I just don't want to talk about merely 
compliance, but compliance for a reason. And I--and we--again, 
we took a model that was broken on the civilian side, at least 
we have been able to clear some of the brush out so folks can 
get some things done. I am just saying, if we need to clear 
some brush out, we will do that, or we should commit to doing 
that with the goal of gaining compliance by the timeline 
because of the value of getting compliance.
    General Fay. Thank you.
    Mr. Forbes. Your points are very valid with that point.
    And with that, we recognize the gentleman from Oklahoma for 
5 minutes.
    Mr. Bridenstine. Thank you, Mr. Chairman. I guess the first 
question is, so in the Navy, we would file DD-175s, or flight 
plans. I am sure it is in the same in the Air Force. And we 
would put on the form, you know, where you put your aircraft 
type, we put an ``I'' after E-2 or whatever it is we were 
flying, I was flying at the time. And the ``I'' would indicate 
to the air traffic controllers that we were a TACAN-only 
[tactical air navigation system-only] aircraft. Is there a 
mitigation technique where we could actually just put that on 
the flight plan and then not have to worry about calling 1 hour 
in advance to all these different air traffic control agencies 
and letting them know? Is that one technique we could employ?
    General Fay. So, Congressman, I think that is part of 
ongoing negotiations we have in the memorandum of agreement 
with the FAA. But as you experienced in your flying, I think a 
similar thing we would anticipate, right now we have a 
restriction on some of our aircraft from flying in certain 
altitude airspaces, the RVSM [reduced vertical separation 
minimum], if you will, restriction. And that is exactly how we 
deal with it today.
    On our 175 flight plan, we make a little notation in the 
remarks section. And our bombers that General Fortney talked 
about is a great example of that. That remark carries across 
all air traffic control as they are flying across the country.
    Mr. Bridenstine. So I have flown RVSM--an aircraft that was 
not RVSM compliant, and I am trying to get from Fallon, Nevada, 
to Denver, and I got capped in my altitude, which in an F-18, 
you burn gas fast down low and not up high. So it does create a 
problem that we have to deal with as operators, as you guys are 
very well aware.
    When you think about, like, the range training complex, 
maybe the Nevada Test and Training complex, or the Fallon Range 
Training Complex, in these complexes, is there any requirement 
at all to have ADS-B, anything, or we just--we own the 
airspace, and we operate the way we want?
    General Nahom. Sir, General Nahom from ACC, I will take 
that. Within the airspaces, we will operate similar to how we 
are right now. Just, like when we go into the airspaces now, we 
regularly turn off our squawks. We gave the example, we turn 
off our lights at night for NVG training. We do things within 
that sterile airspace. Once we leave that airspace, we are back 
in the air, we structurally comply with the FARs [Federal 
Aviation Regulations], just like the civilian aircraft do.
    Mr. Bridenstine. So how about, like, an Active Duty MOA 
[military operating area]? Like if you activate an MOA, can you 
operate in there without an ADS-B?
    General Nahom. Right now, each--all MOAs are different, 
just depending on what the rules are. We will have to look at 
that on a case-by-case basis. We will take that for the record.
    [The information referred to can be found in the Appendix 
on page 51.]
    General Nahom. But right now, depending on the MOA's rules, 
many allow us to turn our squawks off, some don't. Some allow 
us to do NVG training, some don't. It just will depend on the 
MOA and where it is.
    Mr. Bridenstine. Then a big concern would be our military 
bases that are dual uses for commercial, where you are under a 
Class Charlie [C] airspace. That is going to have to be 
mitigated, because you are going to have a lot of traffic in a 
small area, and they are all going to be ADS-B compliant except 
for the military aircraft. There's got to be some mitigation 
for that, correct?
    General Nahom. Yes, sir.
    Mr. Bridenstine. Is there a plan for that?
    General Fay. Sir, that is exactly what we are going to have 
to work through with the FAA. Now, what I would point out, when 
we first took a look at this, that was one of the significant 
questions we had is to scope, the size of, you know, the 
potential issue. And I believe in the 2015 report that the 
Department provided to Congress, I think some of the numbers we 
saw was, at the 20th busiest, you know, report's terminals, 
only 1 percent of the traffic was Department of Defense.
    Mr. Bridenstine. Right.
    General Fay. Now, that doesn't relieve us from working 
through some of the difficult, and you can imagine and you are 
familiar with those bases that are, you know, metropolitan 
areas, some of those. That is what we are going to have to work 
very carefully with the FAA to work through those.
    Mr. Bridenstine. So when I was capped for RVSM challenges, 
if I remember right, it was 280 [flight level 280] is what I 
was capped at.
    General Nahom. Yes, sir.
    Mr. Bridenstine. Now, with ADS-B, we are talking about even 
in Class Echo [E] airspace 10,000 feet and above, are we going 
to have fighters that are going to be transiting at 10,000 feet 
and below? And if so, then you are really burning gas fast. 
That can't be the--that can't be a mitigating solution.
    General Fay. Yeah. Well, worst-case scenario, that is 
possible. And the worst-case scenario is that the aircraft is 
unequipped. It is not one of the aircrafts we have been able to 
equip by 2020, that we haven't been able to work the memorandum 
of agreement with the FAA, so I am going down three or four 
what-ifs here to get there.
    If we are not--if we don't have an MOA, and we are not able 
to work within what is currently in the rule, which is the 1-
hour file a flight plan and ATC [air traffic control] workload 
permitting, sometimes they will allow us to do that. So there 
is--we walk down a far road, but the worst-case scenario, to be 
clear, is we will not be able to operate those airspace with 
aircraft that are not equipped.
    Mr. Bridenstine. Okay. Last question, and I am out of time, 
so I will have to take it for the record, General Thomas. If 
you can give me an update, and you can do it in writing, where 
we are with Amp 1 and Amp 2 for the C-130 program, I would 
appreciate it very much. Thank you, guys.
    [The information referred to can be found in the Appendix 
on page 51.]
    Mr. Forbes. Thank you.
    And the gentlelady from Missouri is recognized for 5 
minutes.
    Mrs. Hartzler. Thank you. Thank you, gentlemen. So I have 
Whiteman Air Force Base, home of the B-2 bomber, in my 
district, very proud of that. But concerned that, the report I 
have here, that only one test aircraft will be compliant by 
there, the remainder by fiscal year 2024 and the cost estimate 
is $84 million. So there is only 20 aircraft. Where are you at 
on addressing this concern? It seems like this would be a good 
place to start in getting these 20 done, because I can't even 
anticipate a B-2 flying below 10,000 feet.
    General Fortney. Yes, ma'am. That is a great question.
    As you probably know, the B-2 was our threshold aircraft 
for the M-code upgrade, which is a facilitator to be able to 
convert to ADS-B. I mean, it was a threshold aircraft. We are--
the reason it is taking a little longer, as we discussed 
earlier, we are bundling certain capability upgrades at the 
same time so that we don't have to break those jets open again.
    As you know, you are way familiar with, ma'am, the low 
fleet dynamics, number of fleet means taking one B-2 offline is 
a significant bill for the country to pay. And so we are 
bundling the IFF [identification, friend or foe] upgrade, a 
Mode 5 upgrade, at the same time we are doing this. It takes 
the aircraft down once, allows depot to go in and break it open 
just once and make both modifications. So having already done 
the M-code mod [modification] to facilitate that upgrade, this 
will allow us to gain the synergy of the programs.
    Yes, it is expensive. You are correct in your numbers. It 
is an $84 million project. But, again, that includes both 
efforts at the same time.
    Mrs. Hartzler. Do you have funding in the NDAA [National 
Defense Authorization Act] this year for this?
    General Fortney. No, ma'am. This is fiscal year 2018. It is 
in our 2018 POM [program objective memorandum] submission.
    Mrs. Hartzler. When you open it up, how long does it take 
to do this?
    General Fortney. I do not know the answer to that. I can 
take that for the record, ma'am.
    [The information referred to can be found in the Appendix 
on page 52.]
    Mrs. Hartzler. Okay. Well, this is really concerning, 
obviously. And so I wanted to talk about the foreign allies, 
because, globally, a growing number of countries also are 
requiring this system to operate in a controlled airspace. So 
can you give me a succinct summary of where other parts of the 
world are on this and other militaries?
    Are they fully upgraded and we are not? Or how would that 
look like as we fly around the world?
    General Fay. Ma'am, I can't speak for the other militaries, 
and so we can probably take that for the record as well to 
assess where they are on it.
    [The information referred to can be found in the Appendix 
on page 52.]
    General Fay. But as far as global operations are concerned, 
the primary driver for us would be in the European theater, 
specifically Eurocontrol. Their ADS-B Out mandate is shortly 
after ours in June of 2020. So we are working much like we are 
working with the FAA, we are working with the Eurocontrol and 
with our NATO allies to see what we can do to see through 
these. Two other places in the Pacific that I am aware of right 
now that are ADS-B Out required are Australia, and, I believe, 
Singapore. We have--in every nation is a little different, so 
we are having to deal with these kind of as we work through 
with those different nations. But so far, we have been able to 
do that, and we are continuing to work with them to sort that 
out.
    Mrs. Hartzler. Okay. Just another question that comes to 
mind, and it is referenced here in the report, is just the 
basic security of the system. When you are increasing the 
amount of satellite base, modern digital technologies, all of 
that is great. My husband is a small plane pilot, and you know, 
avionics, that is great, all this stuff. But with concerns with 
cyber, with hacking, with what China is doing, do you have any 
concerns with retrofitting all of our fleet to this new system? 
Do you feel confident that they will be able to have the 
safeguards in there that somebody can't shoot down a satellite, 
and we are in big trouble?
    General Fay. So, ma'am, we do have concerns. Among them are 
operational security is--I am sure this committee can imagine, 
sometimes we have, as we are doing operations, concerns about 
how much information we share with certain entities. And, also, 
we certainly share other concerns, but I think we have to go to 
a higher security level to have that discussion.
    Mrs. Hartzler. Yeah. Okay. Very good.
    Well, thank you very much. I yield back.
    Mr. Forbes. Gentlemen, thank you for being here.
    At the beginning I told you we were going to give you an 
opportunity for any closing statements. Here is our dilemma. 
They have just called votes. We have 12 votes, which means you 
would have to wait here an hour or so to do that. You are 
welcome to do it.
    Number two, you could submit any clarifications for the 
record; or, number three, you could say, we don't have anything 
else we want to do.
    General, I am going to let you speak for everybody on what 
you would like to do. We are here at your disposal now.
    General Fay. Mr. Chairman, I may be wrong, but I strongly 
suspect a vote on number three would highly successful----
    Mr. Forbes. I thought that might be what you wanted.
    So with that, let me just thank you for your service to our 
country. Thank you for taking the time to be here with us.
    And with that, we are adjourned.
    [Whereupon, at 4:40 p.m., the subcommittee was adjourned.]

?

      
=======================================================================




                            A P P E N D I X

                           September 14, 2016

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 14, 2016

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           September 14, 2016

=======================================================================

      

              RESPONSE TO QUESTION SUBMITTED BY MR. HUNTER

    General Fortney. The cost per aircraft to upgrade to ADS-B out/Mode 
5 varies widely by fleet. For example, in AFGSC, the B-52 costs $1.25M 
each, the B-1 costs $1M each, the B-2 costs $4M each, and the UH-1N 
costs $.2M each. Those costs include research, development, testing, 
engineering, procurement of parts and installations. Military aircraft 
require rigorous integration and testing of installed equipment to 
ensure security of classified components and safety of weapons systems, 
increasing the total costs. Also, the cost typically is lower in civil 
aircraft since they have commercial off the shelf equipment available. 
This allows for economies of scale in the thousands versus a bomber 
aircraft in the low hundreds.   [See page 15.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. CONAWAY
    General Thomas. The C-40B/C fleet is leveraging the commercial 
airline solution to the maximum extent possible, considering the 
military unique equipment required to support the mission of the 
aircraft. We are utilizing the existing commercial aircraft antennas 
and interfaces for the installation of Automatic Dependent 
Surveillance-Broadcast (ADS-B) Out capability. For example, we are 
installing new commercial multimode receivers in order to leverage the 
airline parts pool support for this component. However, due to the 
requirement to install military Identification Friend or Foe (FF) Mode 
5 concurrently with ADS-B Out, we must also utilize the APX-119 
transponder with offers both military and civilian capabilities. This 
difference in equipment causes the C-40B/C ADS-B Out modification to be 
unique compared to the commercial airline B-737 fleet, and as a result, 
a direct cost comparison with commercial B-737 variants is not 
possible.   [See page 17.]
                                 ______
                                 
          RESPONSES TO QUESTIONS SUBMITTED BY MR. BRIDENSTINE
    General Nahom. The FAA, as the owner of the NAS, will determine 
where and when DOD aircraft will be authorized to operate without ADS-
B. While we believe the FAA will authorize non-ADS-B operations in 
Restricted Areas because non-participating aircraft are not authorized 
to enter, we must also ensure non-ADS-B operations in MOAs and Warning 
Areas, when activated, are authorized in order to allow continued 
readiness training to protect the nation and meet our obligations to 
combatant commanders.
    While MOAs and Warning Areas do not prohibit non-participating 
aircraft to enter, they do restrict IFR operations while active. These 
are the current operating procedures for Special Use Airspace (SUA) and 
would allow continued readiness training without negative impacts.
    Lastly, we would advocate an agreement with the FAA to develop 
stereo routes (including altitudes) between military bases and SUA for 
non-ADS-B DOD aircraft in order to avoid the increased risk to flight 
safety by requiring the high performance military aircraft to operate 
below 10,000 feet.
    We believe this is a prudent operational approach until all DOD 
aircraft become ADS-B compliant in accordance with the current equipage 
schedule.   [See page 20.]
    General Thomas. AMC and the C-130H Program Office are already in 
the process of completing portions of C-130H AMP Increment 1. Of the 
components of Increment 1, the Cockpit Voice Recorder and 8.33 kHz 
radios will be installed via unit-level Time Compliance Technical Order 
(TCTO) upgrades that should complete in FY17 and FY18, respectively. 
The Enhanced Mode S (EHS) upgrade is combined with ADS-B Out and is on 
track to complete by 1 January, 2020. The last element of AMP Increment 
1 is currently in source selection. The Request for Proposal was issued 
in Mar 2016 and proposals were received in Apr 2016. This source 
selection is a designated small business set-aside program. The 
evaluation is proceeding on schedule and we anticipate contract award 
by Apr 2017.
    The C-130H AMP Increment 2 program is conducting Market Research to 
determine what solutions are available from industry and are assessing 
those against the specified operational requirements defined by Air 
Mobility Command for the C-130H fleet. In addition, the program office 
is developing the acquisition documents necessary for release of the 
Request for Proposal (RFP). The program remains on track to deliver a 
full Increment 2 modification to the C-130H fleet by 2028, and we will 
seek opportunities to accelerate that schedule where possible based on 
market research and responses to the RFP.   [See page 21.]
                                 ______
                                 
           RESPONSES TO QUESTIONS SUBMITTED BY MRS. HARTZLER
    General Fay. As the Air Force reach is global, we fly to more 
international locations more frequently than other military. As such we 
monitor and assess operational impacts from ADS-B requirements 
implemented around the globe and work to ensure interoperability with 
our allied partners and global air navigation service providers through 
participation in NATO groups, as well as representation in U.S. 
positions and delegations to ICAO. In Europe there is no requirement 
for certain types of aircraft to equip with ADS-B Out so our fighter-
type aircraft will not need to install ADS-B out to fly in Europe. In 
addition to Australia and Singapore, Vietnam, Hong Kong and Taiwan also 
have ADS-B requirements in effect, currently at enroute altitudes 
29,000 ft. and above. As we move forward with our aircraft fleet 
equipage, our planning for transit requirements through foreign 
territorial airspace includes development of databases to identify the 
specific aircraft in the inventory equipped to fly in locations where 
ADS-B is needed to ensure we meet our operational requirements.
    I understand there is a perception that ADS-B Out will be or has 
been mandated by ICAO. It is important to mention that ICAO develops 
civil standards for commercial aviation. Note that the Convention on 
International Civil Aviation (The Chicago Convention), which is the 
international treaty regime on which ICAO is based, explicitly deals 
with civil aviation, and does not apply to state aircraft (per Article 
3). Also, ICAO does not mandate the use of ADS-B Out, however, the ADS-
B Out avionics is a part of ICAO's global initiative to harmonize air 
traffic services into a single set of avionics for seamlessness across 
States and regions. To this end, we do expect to see more nations 
moving towards reliance on ADS-B Out and similar systems.   [See page 
22.]
    General Fortney. Approximately 30 calendar days (20 man-days) for 
the combined Mode5/S/ADS-B Out install for the B-2. Like all B-2 
modifications, the installation for a particular aircraft will balance 
aircraft availability, other modifications, and operational 
requirements.   [See page 22.]



      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           September 14, 2016

=======================================================================

      

                    QUESTION SUBMITTED BY MR. LARSEN

    Mr. Larsen. What specific measures can the Air Force take with 
regard to the 30 percent of the fleet that will not be equipped with 
ADS-B Out avionics by 2020 to ensure those aircraft can still be safely 
separated from civil aircraft in the National Airspace System?
    General Fay. The ADS-B Out Final Rule, effective 11 Aug 2010, 
contained the following provisions intended to address procedures for 
(DOD) aircraft that will not be equipped with ADS-B Out avionics by 
2020:
    1) The FAA will collaborate with DOD to develop Memorandums of 
Agreement (MOA) to accommodate national defense mission requirements. 
DOD is currently collaborating with the FAA on a draft MOA to ensure 
the DOD's mission is not adversely impacted. Those non-equipped 
aircraft will have sufficient navigation equipment on board to safely 
operate in the airspace required for the intended operation. The task 
of ensuring safe operations of aircraft remains in the hands of air 
traffic controllers domestically and internationally. They will 
coordinate the movements of all aircraft to keep them at safe distances 
from each other and direct them appropriately to ensure that traffic 
flows smoothly and safely.
    2) There is a process for air traffic control (ATC) authorized 
deviations from the ADS-B Out requirements described in 14 CFR 
Sec. 91.225 to accommodate non equipped aircraft after Jan 2020. 
Requests are to be made to the ATC facility having jurisdiction over 
the concerned airspace at least one hour before the proposed operation. 
The ATC facility with jurisdiction over the applicable airspace has 
discretionary authority to determine whether accommodations for non-
ADS-B equipped aircraft can be made.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. ZINKE
    Mr. Zinke. If USAF determines that commercial NDI solutions exist 
that meet the minimum requirements for the C-130H AMP Increment 2 
upgrade, will USAF shorten the EMD (Engineering and Manufacturing 
Development) schedule so that the Guard and Reserves can acquire this 
much-needed capability faster than would be expected in a classic 
MILSPEC development program? If not, why not?
    General Thomas. The USAF is evaluating contract types as part of 
the acquisition strategy to determine the most appropriate type for the 
EMD and production efforts. While there may be commercial NDI solutions 
available, it will still require a certain degree of engineering design 
effort to integrate these NDI solutions to function with existing C-
130H electrical and electronic systems. The level of engineering design 
may require a hybrid mix of contract types by the Air Force. The 
contract mechanism used will seek to ensure best value for the 
government while meeting operational requirements.
    Mr. Zinke. Assuming that commercial NDI solutions are available 
that meet the minimum requirements for C-130 AMP Increment 2, and that 
such available solutions would already have an established cost to 
manufacture and install, will USAF require a firm fixed price 
acquisition strategy for the C-130H AMP2 program? If not, why not?
    General Thomas. The USAF is evaluating contract types as part of 
the acquisition strategy to determine the most appropriate type for the 
EMD and production efforts. While there may be commercial NDI solutions 
available, it will still require a certain degree of engineering design 
effort to integrate these NDI solutions to function with existing C-
130H electrical and electronic systems. The level of engineering design 
may require a hybrid mix of contract types by the Air Force. The 
contract mechanism used will seek to ensure best value for the 
government while meeting operational requirements.

                                  [all]
</pre></body></html>
